<html>
<title> - LIFE UNDER OCCUPATION: THE STATE OF HUMAN RIGHTS IN CRIMEA</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    LIFE UNDER OCCUPATION: THE STATE
                       OF HUMAN RIGHTS IN CRIMEA

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2020

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-2-2]


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available via www.csce.gov                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-691PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                      
                       
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
                    
          HOUSE				         SENATE

ALCEE L.HASTINGS, Florida       	ROGER WICKER, Mississippi,
          Chairman			  Co-Chairman
JOE WILSON, South Carolina		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania		JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina		THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin		        TOM UDALL, New Mexico
MARC VEASEY, Texas			SHELDON WHITEHOUSE, Rhode Island                   
          
                  Executive Branch Commissioners
               
               Department of State, to be appointed
	       Department of Commerce, to be appointed
               Department of Defense, to be appointed
                            
                            
                            [II]  
 

                    LIFE UNDER OCCUPATION: THE STATE
                       OF HUMAN RIGHTS IN CRIMEA

                              ----------                              

                            January 28, 2020
                            
                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Roger F. Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................    11

Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

Hon. Robert B. Aderholt, Commissioner, Commission on 
  Security and Cooperation in Europe.............................    11

Hon. Marc Veasey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19

                               WITNESSES

Oleg Sentsov, Ukrainian writer and filmmaker held prisoner by 
  Russia for 5 years.............................................     3

Tamila Tasheva, Deputy Permanent Representative of the President 
  of Ukraine in the Autonomous Republic 
  of Crimea......................................................     5

Melinda Haring, Deputy Director, Atlantic Council's Eurasia 
  Center; Senior Fellow, Foreign Policy Research Institute.......     8

                                APPENDIX

Prepared statement of Hon. Alcee Hastings........................    26

Prepared statement of Hon. Benjamin L. Cardin....................    28

Report prepared for the record by Maria Tomak, co-founder of the 
  Ukrainian NGO Media Initiative for Human Rights................    30

 
                    LIFE UNDER OCCUPATION: THE STATE
                       OF HUMAN RIGHTS IN CRIMEA

                              ----------                              


                            January 28, 2020

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:00 a.m. in Room 210, Cannon 
House Office Building, Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe, presiding.

    Commissioners present: Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Roger F. 
Wicker, Co-Chairman, Commission on Security and Cooperation in 
Europe; Hon. Sheldon Whitehouse, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. Robert B. Aderholt, 
Commissioner, Commission on Security and Cooperation in Europe; 
and Hon. Marc Veasey, Commissioner, Commission on Security and 
Cooperation in Europe.

    Witnesses present: Oleg Sentsov, Ukrainian writer and 
filmmaker held prisoner by Russia for 5 years; Tamila Tasheva, 
Deputy Permanent Representative of the President of Ukraine in 
the Autonomous Republic of Crimea; and Melinda Haring, Deputy 
Director, Atlantic Council's Eurasia Center; Senior Fellow, 
Foreign Policy Research Institute.

   HON. ALCEE HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Good morning and welcome to the United States 
Helsinki Commission.
    Our subject this morning is ``Life Under Occupation: The 
State of Human Rights in Crimea.'' Almost all of us in this 
room know about this situation. I'd ask us now to come to 
order. [Bangs gavel.] And I will say that some of my colleagues 
who aren't as diligent about time as I am will be coming along. 
I believe on both sides of the aisle we have commissioners that 
are going to join us this morning.
    It's hard to believe that almost 6 years have passed, 5 of 
which Oleg Sentsov was in prison most of that time. Just as it 
did in Georgia 2008, Russia defied international law and in a 
sudden, brazen display of revanchism rewrote the borders of a 
sovereign nation. Of course, we know how Crimea was just the 
opening salvo in President Putin's--I guess he's still 
president. It seems like last week or two he's been reforming 
everything so he can be leader for life--but his campaign to 
stop what he saw as the inexorable movement of a fledgling 
democracy toward greater integration with the West, its values, 
and its institution.
    A little disclaimer here. At the time that the Orange 
Revolution took place I was the lead monitor for the 
Organization for Security and Cooperation in Europe in that 
election, so I saw firsthand some of the beginnings of a 
change. And, I might add, I went back as the lead monitor for 
the second election. And I felt in both instances that the 
elections were handled appropriately.
    To Mr. Putin, the Ukrainian people's desire for closer ties 
to the European Union, for stronger democratic institutions, 
and to an end to endemic corruption was impermissible. So he 
did the unthinkable, and through blatant subterfuge and an 
utter disregard for international law, he took by force a part 
of Ukraine's sovereign territory, changing forever the lives of 
the people who live there. He went on to instigate a bloody 
conflict that's ongoing in Eastern Europe at the cost of, so 
far, 13,000 dead and many thousands more injured or displaced. 
Putin did all of this in order to stymie Ukraine's Euro-
Atlantic aspirations.
    Today we're here to talk about the lives of the people who 
live under the heavy hand of Russia-occupied Crimea. Some of 
them forced to flee their homes, some to give up their 
fundamental freedoms of expression, and worship, and even their 
ethnic and cultural identity in order to survive. Through a 
variety of hardline methods, including forced citizenship, sham 
referendums, legal intimidation, disinformation, and 
prohibitions on access to and use of Ukrainian language, 
Russian authorities have sought to stifle dissent and project 
to the world a false image of a prosperous, free Crimea.
    I was never in Crimea, but I read a lot about all of 
Ukraine when I was doing work there. And my understanding 
before all of this intervention, Crimea was flourishing, 
particularly in the area of tourism. And I also know for a fact 
with our discussions with Ukrainian leaders that there was a 
very strong leaning of Ukraine to join NATO at some point in 
their future. By limiting access to the international and 
Ukrainian human rights organizations, the Kremlin has 
effectively created a veil between Crimea and the rest of the 
world.
    This morning we have three respected witnesses with us who 
will pull back the veil and show us the harsh reality of 
Russia's oppressive occupation, one which includes arbitrary 
arrests, harassment, imprisonment, censorship, and other brutal 
tactics aimed at forcing a proud people into submission--
whether they be civil or society activists, community or 
religious leaders, artists, journalists, or simply those whose 
religion and ethnicity are viewed with distrust and fear. The 
goal of today's hearing is to shine a light on the human rights 
situation in Crimea and to send a clear signal to the people 
there that the U.S. Congress, particularly Alcee Hastings, the 
Helsinki Commission, and the Organization for Security and 
Cooperation in Europe, have not forgotten about your plight.
    First to speak is a man who comes to symbolize, through his 
courage and moral strength, all those Crimeans who refuse to 
bend to the Kremlin's will. Oleg Sentsov is a Ukrainian 
filmmaker and director who was detained by Russian authorities 
in May 2014 on trumped-up charges of terrorism and was 
sentenced to 20 years in a Russian prison. But he refused to be 
silenced. In 2018, he began a hunger strike that lasted 145 
days to call for the release of all Ukrainian political 
prisoners held in Russia, capturing the world's attention to 
his and his countrymen's plight. This nation and Congress never 
forgot about you, Mr. Sentsov. And it moves me greatly to have 
you here with us, once again a free man. When I just met you I 
told you I thank you for your courage. I really, really do. We 
look forward to hearing your thoughts on the situation in 
Crimea.
    Next we will have Ms. Tamila Tasheva, who is the deputy 
permanent representative of the president of Ukraine in the 
Autonomous Republic of Crimea. That takes a lot of courage 
also, and you're deeply appreciated. Before being named to her 
current position, Ms. Tasheva worked as a cofounder and head of 
Crimea SOS, a human rights group focused on the plight of 
internally displaced persons, as well as the overall human 
rights situation in Crimea. She was also a volunteer during the 
Euromaidan. Prior to 2014, Ms. Tasheva was a civil society 
activist and organizer of events and initiatives highlighting 
the religious and ethnic culture of Crimea. I welcome you, Ms. 
Tasheva, to today's hearing. And we appreciate your 
participation.
    And last--and I'm not going to go back through their 
biographies, I believe you'll find at the desk outside further 
information on all of them--last we have Ms. Melinda Haring, 
who is deputy director of the Atlantic Council's Eurasia 
Center. Previously Ms. Haring was the editor of the Council's 
Ukraine Alert blog that she controlled. She is a long-time 
observer of the region, whose work has been published by NPR, 
Radio Free Europe and Radio Liberty.
    A footnote there, I wish we had a great deal--and I'm 
talking about Congress now, to you all--I wish we had a great 
deal more Radio Free Europe and Radio Liberty. And I'm an 
advocate for funding them appropriately, which we have not been 
doing for a decade, in my judgment.
    She's appeared in The Washington Post and other prominent 
outlets over the course of her career. Ms. Haring has worked 
for Eurasia Foundation, Freedom House, and the National 
Democratic Institute. In addition to her duties with the 
Atlantic Council, she is also vice chair of the board of East 
Europe Foundation in Kyiv, and a term member of the Council on 
Foreign Relations. Welcome, Ms. Haring, and thank you for your 
testimony today.
    I turn now to Mr. Sentsov for any offering that he may wish 
to make. Thank you, sir.

[Note: Mr. Sentsov's remarks are provided through an 
interpreter.]

 OLEG SENTSOV, UKRAINIAN WRITER AND FILMMAKER HELD PRISONER BY 
                       RUSSIA FOR 5 YEARS

    Mr. Sentsov. Thank you very much for inviting me to speak 
at this commission. I will speak about what I experienced and 
what other people experienced as well during and after the 
occupation of the Crimea when the revolution of dignity won a 
victory, which was on February 22d, 2014, when we displaced the 
government of Yanukovych, who was directly subordinating to 
Putin. Putin realized that he was using Ukraine as a sphere of 
influence and decided to take at least something. He decided to 
take the Crimea because that's where many Russian-speaking 
people were residing and earlier Crimea had been, at some 
point, a part of the Russian empire, and the Crimea was the 
home to a Russian naval base.
    Russia likes to say that there was some allegedly legal 
referendum about the Crimean people's will expression. But this 
has nothing to do with the reality. In reality, this was a 
military occupation and a seizure of territory. It started on 
the night of February 26, 2014. This was 3 weeks before the so-
called referendum. Military servicemen without any insignia who 
would be easily recognized as----
    Mr. Hastings. The little green men?
    Mr. Sentsov. One could easily see they were Russian regular 
military servicemen because of the equipment, the weapons, and 
the way they spoke. They did not actually conceal that they 
were Russians. So partly people welcomed them, but a part was 
against it. But it was impossible to object because military 
patrols were everywhere. They set up machine guns at street 
intersections and armored cars were patrolling streets as well. 
And then military columns were moving out of Sevastopol, the 
naval base, but also from Kerch, from across the strait, from 
the Russian territory. So within a few days, the Crimea was 
flooded with Russian military and Russian vehicles. Russian 
military vehicles, trucks, did not even have their license 
plates removed. They felt so confident, they were not scared of 
anything.
    I, as well as many other Crimeans who were against this, 
tried to speak out and do something against it. We were setting 
up protests and rallies against it. But this was dangerous 
because we were facing obstacles. Our actions were dispersed, 
and our activists got arrested. Some activists were missing--
were disappearing and some were found killed. Very soon there 
was established an atmosphere of fear, where you could not say 
anything against Russia. And this was long before that 
referendum came. At the same time, Russia deployed and utilized 
its propaganda specialists and pro-Russian activists. They were 
installing symbols of Russia and setting up rallies, and 
shouting: Russia! Russia!
    But it's obvious when you hear a person from Russia speak. 
They have a different accent than the Crimean speak Russian. It 
was obvious that this was a political show staged by people 
brought in from Russia. But this was being done to make a 
picture--a nice picture for Russian TV, a propaganda picture 
showing that Crimeans allegedly support Russia. And in order to 
maintain this atmosphere of fear and suppress any desire to 
resist, our criminal case was fabricated in part. This was to 
show everyone and make them understand that any resistance is 
futile. So they fabricated this case alleging that I was part 
of some group that was preparing some explosions. All those 
detained, arrested on those charges were tortured during 
interrogations because there were no proofs--no explosives, no 
weapons, nothing. But not everyone can stand tortures. That's 
why some made confessions. They later refused from those 
earlier testimonies during the court, but----
    Mr. Hastings. Mr. Sentsov, what were some of the things 
that they did to you, if you don't mind? I know that's 
difficult to talk about, but----
    Mr. Sentsov. Beatings of people with arms, legs and batons, 
suffocating them with a plastic bag. This is a very simple, but 
very effective torture. I've only seen this in--but prior to 
that I saw this only in an American movie, or some other 
movies. And when I saw that in a movie, I could not understand 
why it breaks people so apparently easily. But when they 
deprive you of breathing, that impacts your most basic 
instinct, to breathe. You're seized by a very strong, like, 
animal fear, and you can't resist it. You are willing to 
survive so strongly you're ready to say anything. But I did not 
sign what they wanted. That's why I was given this sentence of 
20 years in prison.
    They proposed me a deal saying if I testify against 
Ukrainian leaders, I will only get 7 years in prison. And I 
refused to do that. While I was in the Russian prison 
afterwards, I incidentally intersected with a Russian military 
serviceman who was in a neighboring cell. He was a former 
serviceman of the Russian Spetsnaz, the special operation force 
of the GRU. He was sentenced for criminal offense performed--
while he was drunk he killed a police officer.
    And he told me more about how Crimea was seized, because he 
was a part of that operation. He said that back on February 22d 
of 2014, this was the day when Yanukovych's power collapsed, 
they received orders and were transferred from Novorossiysk, a 
port in Russia, to Sevastopol in the Crimea. Then they waited 
for 3 days in Sevastopol for orders to move. And then on 
February 26th, they started occupying the Crimea. So his 
testimony only added to the picture of this occupation that I 
knew. He told me that after the Crimea he was involved in the 
military action in the Donbas, how they were entering Ukraine's 
territory from the Russian territory, performing their 
operations, and then leaving back. And he explained that all 
the most serious military action against Ukrainian military 
were done by Russian Spetsnaz, the special operation forces.
    That's all I know on this question, but I'm sure Tamila can 
add more.
    Mr. Hastings. I'll come back and ask you some questions at 
some other time, if you don't mind.
    But Ms. Tasheva.

    TAMILA TASHEVA, DEPUTY PERMANENT REPRESENTATIVE OF THE 
   PRESIDENT OF UKRAINE IN THE AUTONOMOUS REPUBLIC OF CRIMEA

    Ms. Tasheva. Honorable chairman, dear colleagues, it's a 
great honor to be invited here today to testify about the 
realities of life under occupation and the state of human 
rights in Crimea. Almost 6 years have passed since Russia 
started its aggression against Ukraine by invading Crimea and 
initiated hybrid warfare with its proxies in Eastern Ukraine. 
Everybody residing in the territory of the Autonomous Republic 
of Crimea and the city of Sevastopol was forced to get Russian 
passports and acts of enforced citizenship, unrecognized by 
Ukraine and international community. In Crimea, it is 
impossible to live without the Russian passport because people 
who do not have them are deprived of social services and 
medical care.
    Russia's next step was the prosecutions of disloyal groups 
of population, including Crimean Tatars, who ignored the so-
called referendum and leaders did not recognize Russian 
jurisdiction over Crimea, and ethnic Ukrainians. Russia's 
instruments of prosecution included harassment, imprisonment on 
political grounds, kidnapping and murder. At least 20 
individuals were killed and 50 kidnapped, of which 15 remain 
missing and have yet to be found. More than 100 individuals 
were imprisoned on political grounds. And the houses of at 
least 350 individuals were searched and their residents 
detained.
    Russia cynically imposes ideologies, but specifically on 
the young generation. Children and youth are brought up in the 
spirit of militant patriotism and taught to glorify the 
occupying state. Such an ideology puts pressure on children and 
negatively influences their consciousness. According to the 
occupying authorities, at least 8,500 children in Crimea were 
incorporated into the military movement, in the young army. 
Half of them were inducted as recently as 2019.
    Mr. Hastings. Ms. Tasheva, were they boys and girls, or 
just boys are being----
    Ms. Tasheva. Yes, it's boys and girls.
    Mr. Hastings. Boys and girls.
    Ms. Tasheva. Since the spring of 2015, Russia launched a 
recruitment campaign in Crimea for its own military. As a 
result, at least 20,000 Crimeans were conscripted to Russian 
military service. Most of the conscripts are sent to military 
services in faraway regions of the Russian Federation.
    Since the beginning of the occupation, at least 78 criminal 
proceedings in Crimea have been initiated against individuals 
who have avoided the mandatory conscription. During this 
occupation, the Russian Federation has directly and indirectly 
displaced the local Crimean population and replaced them with 
their own citizens. Since the beginning of the occupation about 
a thousand Ukrainian citizens have been forcibly deported. 
About 42,000 people registered in mainland of Ukraine as 
internally displaced persons from Crimea. The replacement of 
the local disloyal Crimean population with the Russian 
population is ongoing. From 2014 to 2019 estimates guess 
between 140,000 and 300,000 Russian citizens changed their 
place of registration from regions of Russia to the so-called 
Federal city of Sevastopol or Republic of Crimea. The occupying 
administration plans to increase the number of migrants to more 
than 450,000 people.
    Following widespread arrest of Crimean Tatars in 2016 a 
civic movement known as Crimean Solidarity emerged to unite 
relatives of the imprisoned lawyers and activists. In May 2018 
Server Mustafayev, the key coordinator of the movement, was 
arrested and charged with participation in terrorist 
organization. On 27th March 2019, mass searches took place in 
the homes of 25 activists in order to harass members of the 
movement. Twenty-four people were detained after the searches 
and targeted with a criminal prosecution. The occupying state 
creates a territory that lacks many rules of law and suppresses 
any struggle of the local inhabitants for their rights.
    Due attention should be drawn to the situation of the 
Crimean Tatars in occupied Crimea. After the beginning of 
occupation, Russia attempted to bribe key Crimean Tatar leaders 
to announce their support of Russia. However, after being 
rejected, Russia started to struggle with the Crimean Tatars by 
eliminating their national institutions, particularly the 
Mejlis of the Crimean Tatar People, which was formally banned 
for extremism. Some leaders of Mejlis were criminally 
prosecuted, harassed, and tortured. On April 19, 2017 the 
International Court of Justice addressed the case, Ukrainians 
versus the Russian Federation, and obliged Russia to reject the 
existing limitations, to refrain from further constraining 
measures against Mejlis. The International Court of Justice 
order has not yet been implemented by the Kremlin.
    From its side, Ukraine creates all the conditions for 
preserving, restoring, and supporting communication with its 
own citizens residing in the temporary occupied Autonomous 
Republic of Crimea and the city of Sevastopol. We realize the 
failures of certain actions, including several laws and 
regulations adopted right after beginning of Crimean 
occupation, regarding poor border crossing conditions within 
the temporarily occupied territory, a recognition of our own 
citizens living in occupied territory as nonresidents, and 
other discriminatory regulations as identified by Ukrainian and 
international human rights organizations.
    But the official policy of Ukraine has now undergone 
significant changes. In particular, the checkpoints at the 
administrative border with Crimea were completely equipped and 
improved, including the construction of service zone. An 
amendment to the current legislation canceling discriminatory 
regulations related to nonresident status was also developed. A 
new TV channel is planned as a source of credible information 
for the residents of occupied territories to counter Russian 
propaganda.
    We express our gratitude to the United States of America 
for its consistent support of the territorial integrity of 
Ukraine and assist in countering armed aggression by the 
Russian Federation. We firmly believe that only through joint 
effort is it possible to counteract systematic violations of 
human rights. On this occasion, we would like to assure you 
that we recognize that the consistent support of the United 
States in voting for the resolution on Crimean accession of the 
U.N. General Assembly during the imposition of the promulgation 
of sanctions on Russian Federation, and in particular on 
resolving the problem with gas transportation.
    We highly appreciate Crimean declaration by U.S. Secretary 
of State Mike Pompeo adopted in July 2018. We hope that all 
European countries will follow suit and adopt their own Crimean 
declaration. We are convicted that next step should be the 
creation of an international platform for negotiation on the 
return of the temporarily occupied Autonomous Republic of 
Crimea and the city of Sevastopol. Thank you very much for your 
attention and I would welcome your questions and comments if 
you have.
    Mr. Hastings. Thank you, Ms. Tasheva.
    I'm known to throw staff off and depart from the regular 
routine. We don't have any notepads in the audience, but before 
hearing from Ms. Haring, maybe we could pass around a couple of 
these that members have not occupied yet. And if any of you 
would write a question----
    I think I'm prepping for what's happening in the Senate. 
That's how they do that. But just raise your hand, and we'll 
have our staff pick it up. I'd like to do that because it's 
kind of hard to just sit up and listen, and never have anything 
to say.
    But Ms. Haring has a lot to say, so without my involvement 
anymore, Ms. Haring, we're welcome to hear you.

  MELINDA HARING, DEPUTY DIRECTOR, ATLANTIC COUNCIL'S EURASIA 
    CENTER; SENIOR FELLOW, FOREIGN POLICY RESEARCH INSTITUTE

    Ms. Haring. Thank you, Chairman Hastings, for the 
opportunity to speak today. Crimea hardly gets any attention so 
thank you so much for your leadership and your passion for 
Ukraine. The human rights situation in Russian-occupied Crimea 
is acute and getting worse. It merits a hearing as a stand-
alone issue. But I want to provide a little bit of framing 
beyond all of the grim statistics that we can all throw out.
    What happens in Crimea has significance that goes beyond 
the plight of 2 million people who live there. What happens in 
Crimea may not stay in Crimea. What Moscow is learning in 
Crimea is how to apply a range of oppressive and coercive 
tactics to minorities it perceives as hostile and of 
questionable loyalty. These insights could be applied elsewhere 
in Russia, which is home to considerable non-Russian minority 
populations. How the U.S. Government reacts to the ongoing 
abuses in Crimea will undoubtably factor into Moscow's calculus 
on comparable situations in the future.
    The picture in Crimea is grim. It's no exaggeration to say 
that the peninsula is becoming a police state. Crimea was once 
the pearl of the Black Sea and a premier vacation destination, 
as you noted. It's now bereft of tourists. It's cut off from 
the world without any access to independent media. And it's a 
place where occupying authorities use children to spy on their 
parents. The media is controlled by the government, independent 
media sources are forbidden and have been blocked or barred 
from the peninsula.
    The good news, though, is that the U.S. Government worked 
quickly to stand up an excellent independent source of 
information that is flourishing today. Within 3 months of 
annexation Radio Free Europe/Radio Liberty's Ukraine service 
launched a website called Crimea Realities, and it tracks all 
the developments in Crimea in three different languages--in 
Russia, Ukrainian, and Crimean Tatar. It's the top-ranked news 
source on Crimea, with approximately 2.4 million visits per 
month in 2019. I, too, share your enthusiasm for Radio Free 
Europe/Radio Liberty. And their Ukraine service--I cover 
Ukraine broadly--is outstanding.
    Mr. Hastings. Good. Thank you.
    Ms. Haring. Absolutely. Religious freedom is also a serious 
concern. The Ukrainian Orthodox Church is forbidden in Crimea. 
And Crimean Tatars are routinely interrogated after Friday 
prayers. I can go into this in more detail, but the legal code 
was changed after annexation. And that's a big deal.
    Mr. Hastings. And that includes the Jehovah's Witnesses?
    Ms. Haring. That's correct, sir. That's correct. Another 
area of concern that Tamila has gone into is education and 
language rights. I won't belabor that point.
    Since annexation, 50,000 people, including more than 25,000 
Crimean Tatars, have fled. Approximately 500,000 Russians have 
moved in, primarily--they're primarily military personnel and 
civil servants. The situation is getting worse. According to 
the Crimean Tatar Resource Center, the number of politically 
motivated arrests has increased ninefold in the last 2 years. 
One hundred Crimean political prisoners are being held in 
Russia. And the problem is, we don't know their names. We know 
Oleg Sentsov's name, but we don't know the other hundred names. 
And, Mr. Chairman, I would love for you to help us get their 
names out there. That's something that Congress is really good 
at doing.
    The FSB [Russian Federal Security Service] is doing its 
absolute best to stamp out dissenting thought. Up to 200,000 
people over the last 6 years have been approached, intimidated, 
or interrogated by the FSB. And they aren't nice. Here's what 
they do: They break into your home between 4 and 6 a.m., when 
your children are sleeping. They sometimes enter from the roof. 
They brandish automatic weapons and grenades, and they're in 
full special forces gear. Russia has effectively turned Crimea 
into a Russian military base.
    It's no exaggeration to say that Crimea is armed to the 
teeth. And I have a lot of statistics on APCs [armored 
personnel carriers] and all kinds of gear if you want to talk 
about it. The Soviet Union's bases on the peninsula have been 
restored, and anti-aircraft missile systems now line Crimea's 
perimeter. Additionally, the Russian Government may have placed 
nuclear weapons in Crimea. Perhaps most troubling, though, are 
reports that the state is using its security services to 
encourage ordinary people to spy on their neighbors and their 
families.
    Given these many challenges what can the government--what 
can the U.S. Government do? Continue to speak out 
unambiguously. Crimea is Ukraine, full stop. Continue to invest 
heavily in Radio Free Europe/Radio Liberty's Ukraine service. 
This is a lifeline that keeps the people of Crimea from being 
cut off from the larger world. Help make the names of the 
hundred Crimean prisoners known. The United States should 
support cultural, religious, and educational institutions in 
Ukraine that operate outside of Crimea--many of them are in 
Kyiv, but support resistance to Russian occupation there.
    Thank you so much, Mr. Chairman, for your leadership and 
passion for Ukraine.
    Mr. Hastings. Thank you, Ms. Haring.
    We've been joined by United States Senator Sheldon 
Whitehouse. And I'm delighted. I indicated to him that we have 
not asked questions. But in an effort to let him set up, I'm 
going to just ask the two that came to me from the audience. 
And now more. [Laughs.] I'll ask these after Senator Sheldon 
finishes up.
    How do you see justice in Ukraine in a case of Russia 
leaving Crimea? It's an interesting question. That's if Russia 
were to leave, how do you see justice? And I guess another way 
of putting that would be to compare justice before the 
intervention with what you're experiencing now.
    Mr. Sentsov. What matters is that Russia should leave. And 
all those questions that may come up, we'll deal with them 
later.
    Mr. Hastings. All right. The senator and I have probably 
have the very same questions.
    So I hope I'm not treading in his territory. But this came 
from the audience, and I was going to ask: What next? And what 
can the U.S. Congress do to support Crimean independence? And I 
ask all three of you that question. And then I'll turn to my 
friend, Senator Whitehouse. Believe it or not, some of us are 
friends up here. [Laughter.]
    Ms. Tasheva. A Senate commission on legal reform along with 
a working group on reintegration was established at the State 
level. And a national concept of traditional justice is 
finalized within the framework. This concept consists of four 
main blocks--compensation for damages to victims and 
responsibility for crimes committed during the armed conflict. 
Rights to truth and restoration of historical truths. And 
reform of the security sector. The concept will become the 
framework for the development of a legal regulation system 
regarding issues connected with the aggression conducted by 
Russian Federation.
    Yes, I am answering for your question, what is happened 
after Crimea is--the occupation. Because Ukraine works on 
traditional justice concept, what we do after the occupation, 
and what we must do before occupation, and what are our plans. 
If--yes.
    Mr. Hastings. Mr. Sentsov.
    Mr. Sentsov. Regarding the question, what the U.S. Congress 
can do, the U.S. Congress has already done a lot. The sanctions 
were adopted. They haven't killed Russia, but they have made an 
effect. This most recent action regarding Nord Stream project, 
that was a very powerful step. And it's not that it makes 
serious economic impact on Russia, but it heavily impacts 
Putin's political ambition. And I hope those efforts will 
continue.
    The most important thing is that the policy would not 
switch from continuous pressure to efforts to make peace. For 
Putin, any attempt to make peace is seen as a sign of weakness. 
It's impossible to talk with him, because he does not want 
peace in Ukraine. His goal is to conquer Ukraine and to control 
all neighboring countries of the region. And that's what 
Ukraine will never accept, which is why making peace with Putin 
is impossible. And we hope the Congress will not allow that to 
happen behind our backs. We need to continue putting pressure 
on Putin on every front until we defeat this terrorist state.
    Mr. Hastings. All right. We've--yes, Ms. Haring. I was 
going to say, before you make your remarks, we've been joined 
by our commissioner Robert Aderholt, who is the immediate vice 
chair of this organization. Go ahead.
    Ms. Haring. Thank you so much.
    As an editor I don't think I'll surprise you by saying: 
Words matter. And the Russians hate it when we call Crimea 
Russian-occupied. So our words matter. We can continue to speak 
out and use our voice. And I agree with Mr. Sentsov that 
Congress has been exemplary. And there's a number of things, 
though, that I think we can do. Like I said before, helping to 
make the names of the hundred political prisoners in Crimea 
known. Let's make them international stars. Don't forget their 
names. Keep the sanctions on, absolutely.
    The United States should support cultural, religion, and 
educational institutions in Ukraine that help--that are based 
outside of Crimea, but that support the resistance. And I can 
give you some specific examples, if you'd like. We need to 
continue to invest heavily in Radio Free Europe/Radio Liberty's 
Ukraine service. And I have to admit, this is a thorny problem.
    There's a debate within the expert community. Are we going 
to have to wait 50 years, like we did in the Baltics? And some 
people think that. I can tell you that the Crimean Tatar 
community doesn't think that they have that long. That there 
aren't as many of them. And they think the situation--that the 
status quo will not hold and that we have to do something more 
now.
    Mr. Hastings. All right. We've been joined now by the vice 
chair of the organization, my good colleague and friend Senator 
Roger Wicker. And, Roger, where we are, we have had opening 
statements and I have continued to have a few things to say. I 
see Gayle Wicker just walk in here. Hey, Gayle. And we're going 
to go to Senator Whitehouse. And then if you don't mind, I'll 
come to you. I'll defer--maybe have one question or so while I 
get you ready--and then we'll go to Robert. I know you all have 
a lot of stuff going on.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Well, thank you, Mr. Chairman. But I don't mind 
waiting my turn. And many people have come here and----

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. And I don't mind yielding to the vice 
chairman. There's a reason why somebody is the vice chairman. 
They should get some priority. And if you want to go ahead, 
feel free to do so. Again, I'm ready----
    Mr. Hastings. Well, you were here first, Senator. So we're 
trying to toe the line.
    Now, Robert, the ball's in your court.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. I'm going to defer to the senator, so. 
[Laughter.] Let me say it's good to be here. I'm still trying 
to--sorry I was late. I had a previous engagement, but glad to 
have each of you here, glad to hear your comments on this 
issue, and this is very informative. This is a big issue for 
us. We all have friends that are in Ukraine. And so we want to 
be a friend of Ukraine in every way possible. But, yes, let 
me--let me just pass right now, and come back to me later.
    Mr. Hastings. All right. All right. We'll then go to 
Senator Whitehouse.
    Mr. Whitehouse. Let me start with a question for Ms. 
Haring. History, unfortunately, is an exhibit of instances in 
which one country occupies another country, or the territory of 
another country. Of those many instances with which our history 
is replete, are there any that make a good analogy for the 
nature of Russian occupation of Ukraine today? In some cases, 
the occupier can be seen as a liberator, and afterwards backs 
off. I think we occupied France at the end of the war, and the 
French were actually okay with that. And we gave them their 
country back, and the Marshall Plan kicked in, and everything 
was great. That was a fairly benign exercise. The exercise of 
occupation power that preceded that was obviously less benign. 
And this has happened all around the world. Do you think 
there's an analogy in history for what the Russians are doing 
in Crimea, in terms of the scope of that oppression? How would 
you rate it? And either--on a scale of, you know, 1 to 10 or in 
terms of comparison to a previous episode in history?
    Ms. Haring. Well, I have to admit, I'm a political 
scientist and not a historian. So I----
    Mr. Whitehouse. You're from the Foreign Relations 
Institute.
    Ms. Haring. I know, I know. So obviously what the Russians 
are doing in Crimea is not benign. The comparison that most 
people draw is to the Baltic States, and the idea is----
    Mr. Whitehouse. The Soviet occupation of the Baltic States?
    Ms. Haring. The Soviet occupation of the Baltic States. The 
human rights situation, though, in Crimea is arguably worse 
there than it is in Russia. The tactics are harsher. The things 
that the FSB are doing to people are worse in Crimea than they 
are in Russia.
    Mr. Whitehouse. Is there--this will be a question for all 
of you--is there--in many occupations there is a resistance 
that is operating within the occupied territory. Is there a 
resistance operating against the Russian occupation within 
Crimea? And how would you describe it?
    Mr. Sentsov. Regarding the comparison with occupation of 
the Baltics by the USSR in 1940, at that time troops were 
brought in with some mottos and proposing a referendum. So yes, 
there is a comparison. But regarding resistance in the Crimea, 
so one example of resistance is myself. I was part of--I was 
trying to resist, and I was sent to prison for 20 years. And I 
actually did not do anything. I was just against. If you simply 
speak out and say you are against, you don't like it--even 
though you are a public figure, a film director, they can still 
put you to prison and shut you down.
    And this shows to the people that anyone who dares speak 
against it will have the same fate. Then after the beginning of 
the invasion in late February 2014, there was a lot of 
nonacceptance of Russian invasion among those people who were 
pro-Ukrainian. Many of them were--some of them were Crimean 
Tatars. But the Russian machinery reprisals, with the KGB and 
other agencies of force, this machine is very hard to fight 
against. If you follow news from Russia, people come out with 
just a poster on the street, and they get 3 years imprisonment 
for doing that. People may get 4 years of prison for just a 
line they posted on Facebook.
    So it's very hard to do any resistance when you're 
confronted with such a strong machinery of reprisals. Whereas 
in the Crimea the situation is even much worse. They cannot 
only imprison you. They can kidnap you and kill you. Everyone 
knows this, everyone understands this, therefore everyone's 
keeping on. Whereas acts of disagreement and physical 
resistance can be found, and then people get arrested with 
charges of preparing some acts of terror or other attacks. Even 
though the majority of those who were pro-Ukrainian at the 
beginning have fled the territory into Ukraine, but then still 
there are people who do not accept Russian occupation, 
primarily first and foremost the Crimean Tatars. So Tamila, who 
represents that nation, can say more.
    Mr. Whitehouse. Representative Tasheva, your thoughts on 
the occupation and resistance?
    Ms. Tasheva. [Through interpreter.] I want to thank you for 
your question. I want to say that this attempt to occupy and 
annex Crimea is not the first in history of our peninsula. In 
1783, the previously independent Crimean Statehood was ruined 
by Russian Empress Catherine the Great. The majority of Crimean 
Tatars physically lived on the territory of the Crimea until 
mid-19th century, and their state language was the Crimean 
Tatar language. So the myth of Russian propaganda of the 
Russian State, that this is allegedly the native land of 
Russia, is wrong.
    So the occupation did not take place in 2014. It was 
continuing all through the times of Ukraine's independence. 
Those marionette administrative bodies that were functioning in 
the Crimea, they continued working toward that end. And the so-
called Ukrainian media, which were operating in the Crimea at 
the time, were actually funded from Russia. So what also 
happened in 2014 was really the last step in all that 
development. So we in Ukraine need to maintain as close 
connections as possible with the people who are still residing 
in the peninsula, and show them Ukraine's successes, and 
provide care for those people who still live in the occupied 
territories.
    And we certainly want to continue fighting for returning 
the peninsula back to Ukraine. It is very important to 
establish a platform for some talks about the future of this 
peninsula. As you know, there is a platform for talks on the 
future of the territories in the east. But we do not have a 
negotiation group regarding Crimea. So it is very important 
that you, the United States, get involved in that as well.
    One other remark, in regard to the question on how the U.S. 
could help Ukraine further, in addition to all the help that is 
provided now. One other thing is to continue supporting the 
civic activists and human rights lawyers in the Crimea because 
they are there and they continue to make efforts inside the 
Crimea.
    Mr. Whitehouse. Thank you very much, colleagues. I 
appreciate your courtesy. I would say that our witnesses are 
very welcome and much appreciated. I very much regret that our 
secretary of state said that Americans don't care about 
Ukraine, seeming to imply that Americans should not care about 
Ukraine. I think he is wrong on both counts. And I think your 
testimony today helps remind us why he is wrong on both counts. 
Thank you.
    Mr. Hastings. Thank you very much, Senator. We had--before 
you all came in I opened up questions. So the audience wrote 
down two. And while you're getting ready, one kind of applies 
to what was just said by Ms. Tasheva about organizations on the 
ground.
    How can Congress' own exchange program, the Open World 
Leadership Center, support your efforts to provide factual 
information about the occupation to Members of Congress? The 
Open World Program supports congressional diplomacy efforts. 
And they put both their names, and I'd ask them when we 
conclude the program if you would speak with me briefly. I'll 
inform you where we stand, certainly stand ready to help.
    But this question was for you, Mr. Sentsov. And I had 
something similar, and full well expect that the other 
questioners will as well. When you were in prison, you met 
many--well, since being released from prison--you've met many 
European top officials, including French President Macron. You 
had a speech at European Parliament. And I would say to you 
that I beat you there. I spoke to them some years ago. 
[Laughs.] But what would you say to the U.S. Congress and to 
our President Donald Trump? That's the question that came from 
the audience.
    Mr. Sentsov. First of all, I would say thank you for 
support for Ukraine. I would also express hope that the 
American side will stick to the agreements. Back in the 1990s, 
as you may remember, Ukraine voluntarily gave up its third-
largest nuclear arsenal at the time. And there was the Budapest 
Memorandum. So it was desired that after the collapse of the 
Soviet Union there would be only one nuclear state among the 
post-Soviet nations.
    So for Ukraine, in exchange for giving away those nuclear 
weapons, received promises. This agreement--memorandum was 
signed by the U.S., Great Britain, and Russia. And the promise 
was that these three countries will support us and protect our 
territorial integrity. But all that stopped working when Russia 
broke on that promise. Now, I am very hopeful that the United 
States will never break its word and will continue helping 
defend Ukraine from that real aggressor until that time when 
our territory and our borders are restored.
    Mr. Hastings. Thank you.
    Representative Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    I wanted to talk a little bit about the--going back to the 
Tatar community that you--of course, we talked about. We really 
focused on it this morning. Do we have a number of how many 
people have actually fled the peninsula? What is that estimated 
to be?
    Ms. Haring. Since the annexation, 50,000 people, including 
more than 25,000 Crimean Tatars, have fled. But the problem is 
that they're being replaced by Russians who are primarily 
military personnel and civil servants. The number that I have 
is 500,000 Russians.
    Mr. Aderholt. And of course, I know that there are other 
faiths other than the Tatars in the area, including the 
Orthodox Church of Ukraine and Jehovah's Witnesses. Is that 
correct? Can you talk to us a little bit about what ways that 
their freedoms are being restricted? Even though they're not 
Tatars, even though they're associated with the Orthodox Church 
of Ukraine and Jehovah's Witnesses? What issues do they have to 
deal with by these occupying authorities?
    Mr. Sentsov. In Russia, they persecute anyone who is not 
belonging to the Russian Orthodox Church. In fact, it's in 
their laws. And Jehovah's Witnesses is just the most wide-known 
organization of such kind. They are permitted everywhere, 
except Russia. So hundreds of people are kept in prisons on 
charges of just belonging to that organization. They're not 
just kept in prison, but they are beaten, and tortured, and 
humiliated. And there is a Muslim organization, Hizb ut-Tahrir, 
which is legal in Ukraine and other countries, but in Russia it 
is forbidden. So some of the Tatars that got--who are sentenced 
in Crimea were actually sentenced for belonging to that 
organization. Not for anything they did, but for just belonging 
to that organization. And that's persecution by religious 
identity, which is done by Russia today, in the 21st century.
    Mr. Aderholt. Is it more severe if you're actually in 
Crimea, in this area if someone's a Jehovah's Witness, or if 
they're a member of some other church than the Russian Orthodox 
Church, than it would be, say, if it's in Russia, the country 
itself?
    Mr. Sentsov. Well, they are persecuted in Russia. But in 
the Crimea much more strongly so, because the Crimea is in the 
focus of attention of Russian leaders. So any manifestation of 
disagreement, discord, even in terms of religious identity, 
causes strong repression. I talk with those who leave, come to 
Ukraine from the Crimea. They all talk about atmosphere of 
fear. It's fear, stagnation, seeing no light ahead. This kind 
of atmosphere. And this is all a direct consequence of the 
Russian occupation, which turned the previously flourishing 
region into some kind of a stagnating swamp of Russia.
    Ms. Tasheva. I add a little bit. Russian Federation used 
anti-
extremist and anti-terrorist legislation of Russian Federation 
to prosecute disloyal population in Crimea. For examples, they 
used anti-terrorist legislation among Crimean Tatars and 
different activists from Crimea--for example, Crimean 
Solidarity Group. And they prosecute. And say that we 
prosecuted not Crimean Tatars, we prosecute terrorists. And 
they marginalized this group of people because most of 
politically motivated cases, which we are now, it's a terrorist 
case.
    But most of them, these people, are activists of Crimean 
Solidarity Group. Crimean Solidarity, it's a group of people 
which unite families of political prisoners in Crimea, human 
rights activists, and human rights lawyers. And every day, 
every week they have searches in their houses. And of course, 
they're prosecuted not because they're terrorists. Because they 
are activists.
    Ms. Haring. Thank you so much for the question. So there's 
a really important legal distinction here. Before annexation, 
Crimea did not--or, Ukraine did not have a human rights problem 
with its minorities. Human rights were fine in Ukraine. The 
minority communities were flourishing. The problem----
    Mr. Hastings. Does that include the Jehovah's Witnesses?
    Ms. Haring. So the issue is that the Jehovah's Witnesses 
are illegal in Russia. After annexation, Russian law now 
applies to Crimea. And Russian law--so it's an imported legal 
code from Russia that's hostile to religious minorities. And 
the law has these vague provisions on extremism in missionary 
activity that can be used as a prosecutor wants. It also has an 
onerous registration process that can really squelch religious 
minorities through unreasonable and vague procedures. So 
bureaucrats can just delay if they want to, if they don't like 
them. We have specific examples in the last year or two of 
Crimean authorities either trying to order the demolition of 
Ukrainian chapels or trying to end leases on churches in 
Crimea. So the situation is getting worse. It's really acute 
for anyone who's not part of the Russian Orthodox Church in 
Crimea.
    Mr. Aderholt. Thank you. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much.
    Senator Wicker.
    And we've been joined by Commissioner Marc Veasey from 
Texas.
    Mr. Wicker. Thank you very much, Mr. Chairman. And I'm glad 
to see so much attention to this, and attendance from both the 
House and the Senate.
    Let me just mention, to follow up on what Representative 
Aderholt brought up with regard to religious freedom, and the 
lack of it in Crimea. I have a bill, S. 3064, the Ukraine 
Religious Freedom Support Act.
    Mr. Hastings. Can we get the number again, Rog?
    Mr. Wicker. S. 3064. It is a companion bill to legislation 
in the House, which apparently the authors have done a better 
job on than I have, or perhaps they got a head start. But in 
the House, the companion bill is sponsored by five Republicans 
and seven Democrats, Representatives Wilson, Fitzpatrick, 
Bilirakis, Harris, Meadows, Cleaver, Cohen, Moore, our own 
Representative Veasey, Eshoo, Lipinski, and Quigley. So I would 
mention that as some legislation that perhaps will be helpful, 
in that it would clarify the Office of International Religious 
Freedom authority and require that they consider religious 
freedom violations in Russia and occupied areas of Ukraine, 
considering a, quote, ``country of particular concern,'' 
unquote, or CPC designation, in Russia. I would encourage 
friends of Ukraine and Crimea on both ends of Capitol Hill, 
both sides of the aisle, to cosponsor that, and thank the ones 
that have.
    I also would like to acknowledge the question, Mr. 
Chairman, that you read from representatives of the Open World 
Program. Would they raise their hands? Okay, yes, hello, 
ladies. Thank you very much. I would mention, Mr. Chairman, 
that I was there at the inception of the Open World Program. 
And it was a bipartisan effort, with Representative Bud Cramer, 
and me, and the strong leadership of Senator Stevens in the 
Senate. And seeing as he had such a high-ranking position on 
the Appropriations Committee, and we can give him most of the 
credit there. But it has been a bipartisan program that we've 
had to defend as part of the leg branch appropriation bill each 
time it comes around. Because it doesn't seem to fit in a 
legislative setting.
    The key to it is, and what makes it so special, is we house 
it in an organ of the Congress, which is the Library of 
Congress. So when we sponsor exchanges around the world, and it 
began in Russia and now has moved to areas sort of in the 
Russian sphere, in the former sphere of the Soviet Union, they 
know that it's not an organ of, first, one president's 
administration. And then, another, that it is--these are 
representatives inviting citizens from these various countries 
to come to the United States to find out--to live with us, to 
stay in our homes, to find out how we live and how we actually 
practice freedom of speech, freedom of association, freedom of 
religion in this country. So thank you for being here.
    And I'm so glad that Senator Whitehouse appeared today as a 
member of the Democratic Caucus of the U.S. Senate. We're in an 
impeachment trial right now. And we certainly are not agreeing 
with everything that's being said on both sides of that issue, 
but if there is a silver lining to this cloud of impeachment, 
Mr. Chairman, it may be the strong cries of support from both 
sides of the aisle over in the U.S. Senate to support the 
freedom fighters in Ukraine.
    And perhaps I hadn't noticed it to the extent that I have 
during the arguments both in the House and the Senate, but 
let's celebrate the fact that day in and day out people on both 
sides of the aisle now are talking about how important it is 
that the United States support our allies who are fighting for 
freedom in Ukraine, and not only with blankets and night-vision 
goggles, but now in recent years with the lethal weapons that 
they've been asking for--these tank-busting missiles. And once 
impeachment is over, we'll get this behind us, Mr. Chairman, 
and we'll lock arms on the issues that you and I have stood for 
for so long. But the echo of strong support for Ukraine.
    And today, the echo of strong support for Ukrainians who 
live in occupied Crimea is still strong. And I want to thank 
whoever has emphasized today that Crimea is still a part of 
Ukraine. The law-abiding international neighbors from around 
the world, from all over Europe, have resoundingly rejected 
this sham referendum that took place in Crimea, which was 
nothing more than a sham. A total farce, and a joke. And stated 
that we may not be able right now to change the physical 
situation in Crimea, although that is our goal, but we still 
come down with a strong position that Ukraine is--that Crimea 
is a part of Ukraine. Since Fiscal Year the foreign operations 
appropriations have restricted funds for implementing policies 
that would recognize Russian sovereignty over Crimea. I think 
it's important that we have done that on a bipartisan basis.
    And Ms. Tasheva, I believe you mentioned in your testimony 
that Secretary Pompeo issued the Crimea Declaration. And you 
celebrate that, I do believe, which reaffirms, and I quote, as 
policy of the United States' ``refusal to recognize the 
Kremlin's claims of sovereignty over territory seized by force 
in contravention of international law. In concert with allies, 
partners, and the international community, the United States 
rejects Russia's attempted annexation of Crimea, and pledges to 
maintain this policy until Ukraine's territorial integrity is 
restored,'' unquote. That's the policy of the U.S. Congress, as 
adopted in this foreign operations appropriation. That's the 
strong policy, as enunciated by the chief foreign policy 
officer in the United States of America--Secretary Pompeo. And 
I very much appreciate that.
    If I might just ask one question. I've spoken for a long 
time. But could Mr. Sentsov and Ms. Tasheva tell us what the 
prospects are of another prisoner exchange, and what can we do 
on both sides of the aisle here in the Helsinki Commission--as 
we travel in a few weeks, I hope, to the OSCE Parliamentary 
Assembly. What can we do to try to make yet another prisoner 
exchange a reality?
    Thank you, Mr. Chairman.
    Mr. Hastings. Mmm hmm. Thank you.
    Mr. Sentsov. Well, it was announced by our authorities that 
next exchange is in preparation now. And I am thankful for it 
being--for this being preparation and moving on, because at 
this time near a hundred of our hostages are held in Russian 
prisons. And most of them are Crimean Tatars. And close to 300 
individuals are held by pro-Russian separatists in the Donbas. 
We cannot establish the precise number and conditions in which 
they are, because the separatists do not allow any monitoring 
groups to come in and see.
    But according to testimonies from those who were released 
back in December, according to those words, those people were 
held in terrible conditions. Those people are lacking any 
minimum standards of keeping, and no medical help. And they are 
mistreated. They are humiliated. They are beaten. And so people 
are dying there. We are familiar with the case of one soldier 
that was tortured to death by separatists in captivity. 
Actually, we received his body. And this body has multiple 
fractures, and cuts, and burns. And we were told that he 
committed suicide. And these are terrible things. And it's a 
threat to--it kills real people.
    But those--that harsh imprisonment of people in captivity 
is only a consequence of Russian aggression. In the Crimea, 
Russia held the whole nation as hostages, 300,000 Crimean 
Tatars who are against the Russian State. And so at any time 
Russia can put more hostages in prison. So we certainly must 
continue fighting for release of hostages. But this is just a 
little problem. And the much bigger problem is Russian 
aggression. This is why the big issue, and what I am speaking 
about, is the need to continue fighting against Putin until the 
time when he frees that territory.
    Ms. Tasheva. [Speaks in a foreign language.]
    Mr. Wicker. Your English is actually pretty good. 
[Laughter.]
    Ms. Tasheva. Yes. My English not good, unfortunately. Now 
we're working on two tracks. One of them it's release of people 
who are in temporary occupied territory, Luhansk and Donetsk 
Oblast. And another track, it's persons who are jailed in 
occupied Crimea and the territory of Russian Federation. It's 
very sensitive process. And from your support, of course, it's 
to do most famous----
    [Off-side conversation.]
    Ms. Tasheva. ----more publicity for some names. For 
example, human rights activists Server Mustafayev or Emir-Usein 
Kuku, who had--from Amnesty International have this status----
    [Off-side conversation.]
    Ms. Tasheva. ----prisoners of conscience, yes. And we 
understand that this track, Crimean Tatar track, it's very 
difficult actually because Russian Federation and Putin don't 
like Crimean Tatar minority in Crimea. And this process is very 
difficult.
    And another issue that I need to mention that Oleg also 
said, we must fight against Russian occupation not only about 
human rights in Crimea, because all of issues with human 
rights, we have because we have occupation. When we don't have 
this occupation of Russian Federation in our lands, we don't 
have hundreds of tortured, hundreds of political prisoners. And 
the main problem, of course, it's aggression of Russian 
Federation on Crimea and on Luhansk and Donetsk Oblast.
    Mr. Hastings. Mr. Veasey.

  HON. MARC VEASEY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Veasey. Thank you, Mr. Chairman.
    I had a chance to visit Ukraine a few years ago. And just 
to be able to see people's everyday expressions there, you can 
tell how much this is weighing on the country and what a 
concern this is. And of course, here in the United States 
there's a big concern with us too. I was concerned about some 
human rights issues, particularly freedom of movement in 
Ukraine. What are some of the consequences for a resident of 
Crimea who refuses Russian citizenship? And how are their 
rights, including freedom of movement, being curtailed by 
occupying forces? Either or--either.
    Mr. Hastings. Ms. Tasheva. And you can use the translator.
    Ms. Tasheva. [Through interpreter.] This will be with 
translation, sir. The first thing I want to point out is as the 
result of Russia's occupation, because they are ousting the 
local indigenous population, the Crimean Tatars, we now have a 
new notion in Ukraine of internally displaced persons. So these 
individuals, internally displaced persons, who move to mainland 
Ukraine are allowed to enter the Crimean territory with a 
Ukrainian passport, on condition that they have a residential 
registration in the Crimea. Then they do not have to fill out 
any additional paperwork to enter the Crimea. But then if they 
don't have a residential registration in the Crimea, they're 
only allowed to enter Russia-controlled territory for up to 90 
days.
    But many of the people who originally lived in the Crimea 
and have a Ukrainian passport, some of them they just don't 
have a stamp of residential registration in the Crimea. And 
accordingly, the Russian requirements make it necessary for 
them to--will allow them to only stay there for up to 3 months 
with their family, and then they have to leave the territory 
and come back again. So essentially this does not allow the 
Crimeans who would even want to stay--live in the Crimea with a 
Ukraine passport, they are not able to do that--are not allowed 
to do that.
    Then there is a certain number of people who were deported 
by Russian authorities from the Crimea. Deported as people--as 
unreliable individuals. And they are not allowed to be in the 
Crimea. This applies to individuals who were in the process of 
obtaining Ukrainian citizenship. So when the occupation came, 
they were not--this procedure was not complete for them. So now 
essentially they are individuals without citizenship.
    [Continues in English.] Stateless persons.
    [Continues through interpreter.] Well, the Ukrainian State 
also has certain limitations for crossing the border of the 
administrative line. Any individual from Ukraine is allowed to 
enter the occupied territory of the Crimea. But if you're a 
citizen of a foreign country they must receive a special 
permission from Ukrainian authorities. This requirement takes 
into account considerations of safety, but Ukraine is making 
every effort to facilitate foreign citizens in obtaining such 
permissions if they need to enter the Crimean territory for 
journalistic work or for human rights work.
    There are two official checkpoints between occupied Crimea 
and Ukraine. So any foreign individual who enters the Crimea, 
other than through those official checkpoints between Ukraine 
and the Crimea, they essentially violate Ukrainian laws. And 
this is the reason why we ask you to tell your government to 
watch this, and make sure that U.S. citizens, especially public 
figures, if they want to visit the occupied territory they 
don't do this other than through the Ukrainian checkpoints, 
because any instance when somebody from outside visits the 
Crimea through the Russian territory is used by the Russian 
Federation for propaganda. There have been instances when some 
political figures from the European countries visited the 
Crimea without Ukrainian permission. The Government of Ukraine 
condemns such instances.
    Mr. Veasey. Yes. I also wanted to ask you about freedom of 
the press. You know, we've had our own issues, you know, here 
with social media and the 2016 campaign, with Russians trying 
to influence elections here in the United States, and really 
all around the world. But when it comes to freedom of the press 
in Ukraine, are there still any independent news outlets at all 
that are able to report freely? Are their lives being--you 
know, being basically compromised by reporting? I mean, what's 
going on there in terms of being able to spread information 
about what's really happening in the occupied territories from 
media outlets?
    Mr. Sentsov. Well, in Ukraine itself there is a big number 
of independent media outlets. And the people trust them. While 
prime TV channels certainly are under control of rich tycoons, 
the oligarchs, that's five or six individuals. And they are in 
relations of animosity. So there's no collusion between them, 
which means there is no monopoly in control of the media, like 
you see in Russia. So in Ukraine mainstream media you can see a 
whole spectrum of opinions on different issues.
    Mr. Veasey. And that's being broadcast in Crimea too?
    Mr. Sentsov. I'm speaking about Ukraine. And I want Tamila 
to speak about what's in the Crimea.
    Mr. Veasey. Okay, yes.
    Ms. Tasheva. In Crimea we don't have any Ukrainian media. 
After 2014, most production moved from Crimea to mainland. For 
example, the TV channel ATR, it's Crimean Tatar channel. It's 
Chornomorska, a TV channel, and other TV channels and 
newspapers. Now in Crimea they have only civil journalists, 
actually, who work on the ground and reporting about human 
rights relations in Crimea. They write articles on Facebook 
pages, on Twitter, on Telegram channels. And it's only one 
channel when we have this information from Crimea. If we say 
about broadcasting from Ukrainian side to Crimea, it's also 
difficult because in Crimea they have only satellite. And with 
these satellites they have a chance to see and to watch 
Ukrainian TV channels.
    Mr. Veasey. So they do? The people--they can in some areas 
watch Ukrainian television?
    Ms. Tasheva. They can watch Ukrainian television if they 
have satellite.
    Mr. Veasey. If they have--only if they have satellite. What 
percentage of the people there have satellite?
    Ms. Tasheva. It's small.
    Mr. Veasey. It's a very small percentage?
    Ms. Tasheva. Unfortunately it's a small number. Or maybe 
from internet, of course.
    Mr. Veasey. What percentage of people in the occupied 
territories have access to social media, like Facebook?
    Ms. Tasheva. Most of them.
    Mr. Veasey. Most of them do? Yes. So they can get news 
through that.
    Ms. Tasheva. If they need it, of course, yes.
    Mr. Veasey. Ms. Haring.
    Ms. Haring. Mr. Veasey, I also wanted to note that after 
annexation Radio Free Europe/Radio Liberty set up a website in 
three languages--in Ukrainian, Russian, and Crimean Tatar. It's 
called Crimea Realities. And it's excellent. It is the most 
popular website tracking all the developments in Crimea. So 
it's an online website. It had 2.4 million visits per month in 
2019.
    Mr. Veasey. I wanted to ask Mr. Sentsov very briefly, 
what's the oldest age of males in Ukraine that you're seeing 
that are being conscripted?
    Mr. Sentsov. The question was what is the oldest age?
    Mr. Veasey. Yes. Yes.
    Mr. Sentsov. I cannot say for sure. I know that they used 
to conscript individuals at the age of 18. Now it's 20. That's 
the lower threshold. But maybe it's until 25. I'm not sure. But 
I know that--so this lower threshold was actually recently 
moved back to 18, from 20 to 18. I cannot tell you about the 
upper limit, though.
    Mr. Veasey. Okay, okay. And finally, Ms. Haring, you may be 
best to answer this question, or one of the other panelists. 
I'm not sure who would be--who this goes to. But as far as 
Russia's long-term plan, of course, their goal is to, 
obviously, come into an area, they want to be able to have 
certain control over an area. Do you see this occupation as 
being long term, or do you see it as more of a--you know, do 
you see the Russians' strategy being, Let's go in here and 
indoctrinate as much as we possibly can, and then leave so we 
can continue to have long-term influence in the area? In the 
past, they've been reluctant to, obviously, take in new 
territories, particularly where they think there's a lot of 
corruption and they think that it won't fit in neatly into what 
they want to do long term. But how do you see that sort of 
playing out? I'm just curious about that.
    Ms. Haring. The Russians have no intentions to give Crimea 
back, full stop. It was--you have to remember, it was a big PR 
boon, as well, when Putin went in and----
    Mr. Veasey. Right.
    Ms. Haring. ----quickly took Crimea. And like I said 
before, they have sent approximately 500,000 Russians to go 
ahead and move there permanently. I mean, I can run through--
it's interesting when I say that it's become--it's become a 
Russian military base. The amount of equipment that's been 
moved there and the number of people is staggering.
    So before annexation there were zero battle tanks. There's 
40 now. There were 92 APCs. There's 680 now. There were 24 
artillery systems. There's 174 now. There were 22 combat 
aircraft. There's 113 now. They're not going to move this 
stuff.
    Mr. Veasey. Yes. Yes, absolutely.
    Mr. Sentsov. Russia has no intention to return either 
Crimea or the Donbas under Ukraine--back to Ukraine's control. 
So our strategy on return of Crimea has to be long term. We 
must continue pressure, making pressure on Russia to not allow 
it to stabilize its presence. And also, this should not allow 
the international community to recognize Russia's occupation 
and continue exerting the pressure.
    Early or late, one day, Putin's power will end. He may 
either die or his heirs/successors may replace him. Or maybe 
one day the people of Russia will rise against his dictatorship 
because, in fact, the situation in Russia is far from being 
stable. The people have been tired of all that confrontation. 
So an explosion like that is realistic to expect. It's 
impossible to predict it, however. So any of those 
possibilities may take place.
    And once there's a new government in Russia they will have 
to look for support from the international community, because 
right now there is one single political or government 
institution in Russia; it's called Vladimir Putin. Everything 
is subordinated to him. There are no independent courts, no 
independent media, nothing independent. So when that key 
element disappears the whole system will collapse, and whoever 
comes to replace him will need to find sources of stabilizing 
the system. And that person will have to look for support from 
foreign countries. And at that moment, when Russia's power is 
in transformation, the United States and other allies need to 
have a very clear standing. And the position should be very 
clear that the Western partners will support and give help to 
Russia only on condition that it returns occupied Donbas and 
occupied Crimea back to Ukraine.
    And again, we can go back to those parallels in history 
saying that occupation of Crimea is kind of like occupation of 
the Baltics in 1940, and they had to wait for 50 years to 
regain their independence. Here we'll probably have to wait for 
less than that because Putin cannot last another 50 years. But 
important thing is we need to be prepared for that moment, when 
it comes. And that is the only opportunity to reestablish the 
status quo.
    Mr. Hastings. Well, we take your point. And you all have 
been very generous with your time. If you will just permit me a 
few minutes to carry what Senator Wicker was saying, please, 
particularly Mr. Sentsov and Ms. Tasheva and anyone else that 
may be from Ukraine, Crimea, or that general area, please don't 
let what's going on in the U.S. Senate give you the impression 
at all that there is not complete support for Ukraine. One day 
soon, whatever is happening there will be over. But I'll still 
be the chairman of the Helsinki Commission and other 
congresspersons and senators will be about their business, and 
a part of our business is trying to do what we can to assist in 
Ukraine.
    And in my view, the best thing that we could do now is 
support President Zelensky's effort and those that are like-
minded to do the things that are necessary to stabilize that 
country and to gain its independence. We should not be 
unmindful--and although it has only been mentioned in passing--
that there is a hot war ongoing in Donbas, and that people in 
that area are dying and are in an embattled situation. So we 
didn't cover that this morning. Let the word go forth that we 
need to do what we can to assist Ukraine in being able to carry 
the day in that area.
    And for Ms. Tasheva and Mr. Sentsov, I wasn't going to ask 
you where your families are, but I hope that in your efforts 
your families are safe and that anything we can do, if need be, 
to help.
    The other thing that I've learned as I've traveled about 
the world is that civil society is critically important, and so 
is a justice system that affords due process--are critically 
important. We didn't have time to delve into that this morning, 
but it's on our minds here at the Helsinki Commission as well 
as the religious discrimination that we find not only in 
Crimea, but throughout. And we need to address that in Crimea 
especially. I kept saying the Jehovah's Witnesses. I forgot to 
mention the Orthodox Church is there as well in some 
significant numbers to try and assist the Tatar religion effort 
that's ongoing.
    One of the things I--two of the things that I agonize about 
are when this kind of thing takes place people that were in 
small businesses lose their businesses. Like overnight their 
businesses are gone. And that's not healthy in any of our 
societies, unless they were closing some of the CVSes that I 
know about. [Laughter.] I had to wait 10 minutes to get a razor 
blade. [Laughs.] I'm saying to myself, What's up with this? But 
I think I'd know a little bit about it.
    But my last moment should be a moment of seriousness. I 
read a book over the holiday that encompassed a portion of my 
life. I'm 83 years old, and I grew up in a segregated society 
in a little town named Altamonte Springs, Florida. It's close 
to Orlando, and of course there was no Disney World at that 
time. On Christmas night of 1951--I would have been and was a 
sophomore in high school--a man and his wife were killed--his 
name was Harry Moore, her name was Harriette--by a bomb that 
they're pretty certain where it came from, but certainly there 
was Ku Klux Klan influence that caused that. I remember as if 
it were yesterday the tension. And that city was 50 miles away 
from where I lived, but their people were fleeing and coming 
through my area, and some had relatives in my area, and it was 
a devastating thing.
    Mr. Moore was the chief executive of the NAACP at that time 
in Florida, and he was advocating that black teachers should 
receive the same pay as white teachers. And that's among the 
things that caused his death. He was a principal of a school. 
He lost his job. His wife was a teacher. She lost her job. And 
they had a family, two girls, and her mother and her brother as 
well.
    But with that said, Mr. Moore made a statement at a large 
gathering before his death. And the one thing that was the 
takeaway from it was freedom never dies. Freedom never dies.
    One of the things that's troubling to me is how the 
children are affected in these changes. And I've met dictators, 
kings, and queens, and the Pope, and everyone, and all of us 
have this extraordinary concern for children, and yet we 
persist in allowing not just Russia but other authoritarians 
and dictators around the world to subject the harshness of 
what's going on in Crimea to the children. It's beyond unfair, 
and for as long as I live I'll be speaking out about it. And 
that's whether it's to Putin or to his cousin or--not to his 
momma; he doesn't even speak to his momma, who lives in Georgia 
I might add, and that's kind of interesting. A person that 
doesn't speak to their mother, count me out.
    Thank you all. [Laughs.] Thanks so much. I'm going to come 
down and say hello and we'll take some pictures, if that's 
okay.
    [Whereupon, at 11:56 a.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Hon. Alcee Hastings

    Good morning and welcome to this U.S. Helsinki Commission 
hearing ``Life Under Occupation: The State of Human Rights in 
Crimea.'' We will now come to order.
    It is hard to believe that almost six years have passed 
since Russia's invasion and subsequent occupation of Crimea. 
Just as it did in Georgia in 2008, Russia defied international 
law and, in a sudden, brazen display of revanchism, rewrote the 
borders of a sovereign nation.
    Of course, we know now Crimea was just the opening salvo in 
President Putin's campaign to stop what he saw as the 
inexorable movement of a fledgling democracy towards greater 
integration with the West, its values, and its institutions. To 
him, the Ukrainian people's desire for closer ties to the EU, 
for stronger democratic institutions, and for an end to endemic 
corruption was impermissible. So, he did the unthinkable and, 
through blatant subterfuge and an utter disregard for 
international law, he took by force a part of Ukraine's 
sovereign territory, changing forever the lives of the people 
who lived there. He then went on to instigate a bloody conflict 
in eastern Ukraine that remains active to this day, at the cost 
of 13,000 dead and many thousands more injured or displaced. 
Putin did all of this in order to stymie Ukraine's Euro-
Atlantic aspirations.
    Today we are here to talk about the lives of the people who 
live under the heavy hand of Russia-occupied Crimea. Some have 
been forced to flee their homes; some to give up their 
fundamental freedoms of expression and worship and even their 
ethnic and cultural identity in order to survive. Through a 
variety of hardline methods, including forced citizenship, sham 
referendums, legal intimidation, disinformation, and 
prohibitions on access to and use of Ukrainian language, 
Russian authorities have sought to stifle dissent and project 
to the world the false image of a prosperous and free Crimea. 
By limiting access to international and Ukrainian human rights 
organizations, the Kremlin has effectively created a veil 
between Crimea and the rest of the world
    This morning, we have three respected witnesses with us who 
will pull back that veil and show us the harsh reality of 
Russia's oppressive occupation--one which includes arbitrary 
arrests, harassment, imprisonment, censorship and other brutal 
tactics aimed at forcing a proud people into submission, 
whether they be civil society activists, community or religious 
leaders, artists, journalists, or simply those whose religion 
and ethnicity are viewed with distrust and fear.
    The goal of today's hearing is to shine a light on the 
human rights situation in Crimea and to send a clear message to 
the people there that the U.S. Congress, the Helsinki 
Commission, and the Organization for Security and Cooperation 
in Europe have not forgotten about your plight.
    First to speak is a man who has come to symbolize through 
his courage and moral strength all those Crimeans who refused 
to bend to the Kremlin's will. Oleg Sentsov is a Ukrainian 
filmmaker and director who was detained by Russian authorities 
in May of 2014 on trumped-up charges of terrorism and sentenced 
to 20 years in a Russian prison. But he refused to be silenced. 
In 2018, he began a hunger strike that lasted 145 days to call 
for the release of all Ukrainian political prisoners held in 
Russia, capturing the world's attention to his and his 
countrymen's plight. This nation and this Congress never forgot 
about you, Mr. Sentsov, and it moves me greatly to have you 
here with us, once again a free man. We look forward to hearing 
your thoughts on the situation in Crimea.
    Next we have Tamila Tasheva, who is the Deputy Permanent 
Representative of the President of Ukraine in the Autonomous 
Republic of Crimea. Before being named to her current position, 
Ms. Tasheva worked as a co-founder and head of ``CrimeaSOS,'' a 
human rights group focused on the plight of internally 
displaced persons as well as the overall human rights situation 
in Crimea. She was also a volunteer during the Euromaidan. 
Prior to 2014, Ms. Tasheva was a civil society activist and 
organizer of events and initiatives highlighting the religious 
and ethnic culture of Crimea. Welcome, Ms. Tasheva, to today's 
hearing. We appreciate your participation.
    Lastly, we have Melinda Haring, who is Deputy Director of 
the Atlantic Council's Eurasia Center. Previously, Ms. Haring 
was the editor of the Council's ``Ukraine Alert'' blog. She is 
a longtime observer of the region, whose works have been 
published by NPR, Radio Free Europe/Radio Liberty, the 
Washington Post and other prominent outlets. Over the course of 
her career, Ms. Haring has worked for Eurasia Foundation, 
Freedom House, and the National Democratic Institute. In 
addition to her duties with the Atlantic Council, she is also a 
vice chair of the board of East Europe Foundation in Kyiv and a 
term member of the Council on Foreign Relations. Welcome, Ms. 
Haring; and thank you for testifying today.
    With that, I turn it over to our first speaker, Mr Sentsov.

             Prepared Statement of Hon. Benjamin L. Cardin

    When we look at the ongoing crisis in Crimea and Eastern 
Ukraine, it is easy to wonder how much the United States can 
really do in the face of Russia's reckless aggression. I can 
assure you, however, the United States response to the invasion 
and ensuing occupation of Crimea has been clear and unified in 
its support for Ukraine's sovereignty. The U.S. is holding 
accountable those who carried out and perpetuate this egregious 
and illegal occupation.

    First, the legislative and executive branches have issued 
strong and consistent condemnations of Russia's actions.

    My bill, the Countering Russian Influence in Europe and 
Eurasia Act of 2017, which was included in the CAATSA law, 
states the United States policy ``to never recognize the 
illegal annexation of Crimea by the Government of the Russian 
Federation.'' In similar fashion, in July 2018, Secretary 
Pompeo issued the Crimea Declaration, stating that just as the 
United States refused to recognize the Soviet Union's 
annexation of the Baltic States, so too would we refuse to 
recognize Crimea as a part of Russia.

    But our stance consists of more than just words. CAATSA 
authorized hard-hitting sanctions on human rights abusers in 
Russia-occupied territories and on entities operating in 
occupied Crimea. It also prohibited U.S. investment, trade, and 
business there.

    These sanctions authorities are broader and far more 
complex than I can adequately describe here, and they 
frequently overlap with sanctions relating to Russia's 
aggression in Eastern Ukraine. But the important point is that 
as early as March 2014, the United States has stood against 
this illegal occupation of Crimea in word and deed. Because 
Crimea is separate from the Minsk Agreements, even their 
implementation will have no effect on our Crimea-related 
sanctions. Those sanctions will remain in place until Crimea is 
returned to Ukraine.

    It is unfortunate that these sanctions are necessary. But 
as we will hear today, the problem is not confined to the act 
of the illegal annexation itself, which took no more than a few 
days. It also includes the ongoing campaign of oppression 
against Crimea's inhabitants, which is marked by gross 
violations of human rights. Freedom of movement, religion, 
speech, assembly, and more are at stake.

    The occupation has torn families apart by forcibly creating 
bureaucratic obstacles and borders where none had previously 
existed. It has also contributed to the crisis of Internally 
Displaced Persons (IDPs) in Ukraine. At least 1.5 million IDPs 
have been displaced by the Russian occupation and the conflict 
in Eastern Ukraine. This only considers those who are 
officially registered as IDPs, so the actual number of 
displaced people in the country is likely even higher.
    We are here today as a reminder that Crimea must not be 
forgotten, and that Russia's human rights abuses are no longer 
confined within Russia's borders. We cannot allow Russia's 
behavior to go unnoticed or unpunished. We may not know what 
the future holds for Crimea, but we owe it to future 
generations to hold Russia accountable and to learn as much as 
we can from experts like the witnesses we have here today. I 
look forward to hearing their testimonies.

   Report Prepared for the Record by Maria Tomak, Co-Founder of the 
            Ukrainian NGO Media Initiative for Human Rights

  Ukrainian Detainees Held by Russia: Dozens Remain Imprisoned
    Over the last six months, the Ukrainian government has been 
active in negotiating with the Russian Federation on the 
release of Ukrainian citizens detained in response to an armed 
conflict between the two nations. After a two year stagnancy in 
negotiation between these two groups, two waves of prison 
releases in September 2019 and December 2019 freed individuals 
held within the Russian Federation, occupied Crimea, and those 
kept in non-government controlled areas in Eastern Ukraine. All 
together, more than a hundred Ukrainian citizens were freed (35 
from the Russian Federation and occupied Crimea and 76 from 
non-government controlled areas in Donetsk and Luhansk 
regions). Those released included military personnel taken 
prisoner beginning in Winter 2015 (like the sailors captured by 
Russia in the Kerch Incident), as well as a number of 
civilians. Writer and filmmaker Oleg Sentsov, along with Radio 
Free Europe and Radio Liberty contributors Stanislav Aseev and 
Oleg Galaziuk--all of whom previously voiced criticism of the 
ongoing conflict between Ukraine and the Russian Federation--
were amongst those freed. While this marks a notable victory in 
the ongoing struggle for free speech rights in the region, the 
problem of illegal detainees persists. Currently it remains 
important to underline the following:

        1. The war in Eastern Ukraine is ongoing, as is the 
        occupation of Crimea. Under these circumstances, 
        innocent people continue to experience arrest. Despite 
        the release of multiple Ukrainian citizens from Crimea 
        and Russia in the last few months, at least three 
        additional pro-Ukrainian activists have been arrested 
        in Crimea. Ukrainian human rights NGOs estimate that at 
        least 96 persons remain illegally detained by Russia in 
        the Russian Federation and occupied Crimea. While most 
        individuals experienced initial arrest in the occupied 
        territory of Crimea, they have since been transferred 
        to detention centers within the Russian Federation. 
        This transfer is a violation of International 
        Humanitarian Law.

        2. While a prisoner exchange in September 2019 brought 
        freedom to many Ukrainian citizens, it excluded all 69 
        of the imprisoned Crimean Tatars who remain in jail to 
        this day. Accusations of terrorist intentions against 
        this group, the Russian Federation's excuse for their 
        continued imprisonment, remain baseless. According to 
        an FSB investigation, none of the Tatars have committed 
        any violent acts or shown any suggestion of planning to 
        do so.

        3. The group of imprisoned Crimean Tatars includes many 
        journalists and activist bloggers. Their imprisonment 
        stands as punishment for their bravery in speaking up 
        against human rights violations in Crimea. At least 32 
        of the 69 currently imprisoned were active in the 
        Crimean Solidarity group, a civic initiative started by 
        families of the original group of Tatars detained for 
        political activism. On top of providing support for the 
        families of imprisoned Tatars, the group documents the 
        illegal activities of occupying authorities in Crimea, 
        publishing updates to social media outlets in Ukraine. 
        Beginning in February 2019, members of the group have 
        faced large scale arrests, including activists Timur 
        Ibragimov, Marlen Asanov, Seiran Saliev, Memedeminov, 
        Server Mustafaev, and Enver Mamutov. Activists Raim 
        Ayvazov, Remzi Bekirov, Osman Arifmemetov, and Vladlen 
        Abdulkadyrov's reports of torture experienced during 
        their detentions have gone uninvestigated despite their 
        repeated statements on the matter. As a result of the 
        arrests of these 69 individuals, at least 165 Crimean 
        children have been left without parental care.

        4. After the recent release of prisoners from the non-
        government controlled areas in Eastern Ukraine in 
        December 2019, the Media Initiative for Human Rights 
        managed to obtain information about many other 
        prisoners kept by Russian-backed forces in Donetsk and 
        Lugansk who were not previously listed. NGOs are 
        currently questioning those released in order to map 
        out all of the remaining prisoners. Given the security 
        situation in the non-government controlled areas (which 
        is quite harsh even compared to the occupied Crimea), 
        it is difficult to track the individuals who remain in 
        prison. They may be kept by different armed groups in 
        different places which are not necessarily 
        ``official,'' even for the de-facto authorities of the 
        area. The estimated number of the remaining prisoners 
        in the non-government controlled areas in the Eastern 
        Ukraine is at least 101 people (83 of them in Donetsk 
        and 18 in Lugansk). Meanwhile, the Ukrainian government 
        says it has information about at least 184 illegal 
        detainees in non-government controlled areas in Donbas.

        5. The rehabilitation of released political prisoners 
        remains a prominent issue on Ukraine's agenda. The 
        Ukrainian government has previously discussed the need 
        to provide them with legal status, social support, and 
        rehabilitation--but has yet to actually materialize 
        this aid. Although President Zelenskiy has the ability 
        to submit draft laws to the Ukrainian parliament, he 
        has taken no action nor made any public statements 
        regarding the issue.

    We appreciate attention from the United States government, 
non-governmental organizations, and intergovernmental 
institutions like the UN devoted to the illegal detainment of 
Iranian citizens. Given all of the atrocities taking place 
around the world and the ongoing detainment of US citizens 
abroad, we appreciate America's commitment towards Ukraine all 
the more. We understand that without the constant attention 
already being paid to this issue, many of those released would 
have remained in prison.

    Because of the strides made possible by our international 
community, we ask for your continued support of Iranian efforts 
to negotiate for the release of the remaining political 
prisoners. In order to keep the pressure on, we ask that you: 

        1. Continue to support illegally detained Ukrainian 
        citizens through public statements, reminding the world 
        that the war is not over and dozens of people remain in 
        illegal detention.

        2. To appoint a U.S. Special Representative for Ukraine 
        Negotiations to report directly to the President of the 
        United States on the international armed conflict in 
        Ukraine and respective humanitarian consequences.

        3. To acknowledge the problem of militarization in 
        Crimea and the changing demographic situation in the 
        occupied peninsula, specifically through the making of 
        public statements and the organization of public 
        events.

        4. To ensure that the process of release for current 
        detainees transforms into a systematic negotiation 
        platform giving preference to humanitarian issues.

        5. To extend sanctions to Russian officials in Russia 
        and in occupied Crimea involved in the persecution of 
        the Crimean Solidarity group and other human rights 
        activists and journalists.

        6. To maintain transatlantic unity with regards to the 
        sanctions against the Russian Federation and its 
        officials (precisely those responsible for these grave 
        human rights violations) as a response to Russian 
        aggression against Ukraine, the European Union, and the 
        United States.

        7. To hold a regular Helsinki Commission hearing 
        regarding human rights violations, international armed 
        conflict, and security perspectives in Ukraine. In 
        addition to acknowledging the hostage crisis, this will 
        address other pressing issues in the region, including 
        the militarisation of Crimea and the changing 
        demographics of the occupied peninsula.

    We call on the Russian authorities and demand that they: 

        1. Stop the oppression of Ukrainian citizens in 
        occupied Crimea--especially independent journalists, 
        bloggers, and those affiliated with the Crimean 
        Solidarity group.

        2. Release all imprisoned Ukrainian citizens being 
        prosecuted for political motives within Crimea and the 
        Russian Federation.

        3. Immediately halt the application of Russian 
        legislation on the temporarily occupied areas of 
        Crimea.

        4. Introduce the permanent monitoring of the trials of 
        victims of political persecution in the Russian 
        Federation.

    We call on the Ukrainian government and encourage them to:

        1. Follow through on their commitments to provide all 
        illegally detained Ukrainian citizens with legal 
        status, social guarantees, and rehabilitation, as well 
        as to continue their efforts to release those still in 
        detention.

        2. To enact legislative amendments which create a 
        procedure for the simultaneous release and exchange of 
        prisoners.

    Previous prisoner exchanges raised tensions in Ukrainian 
society due to the impunity of the Russian prisoners returned 
to the Federation. This is predictable--however, it is also 
avoidable. In order to ensure the rights of those released from 
both sides, Ukraine should work to introduce legal amendments 
that allow for simultaneous release in line with the norms of 
International Humanitarian Law. Ukrainian civil society is 
ready to draft relevant proposals of these amendments.

                                 [all]

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
